 Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




    Medicare Payments for DRG 014:

Specific Cerebrovascular Disorders Except
         Transient Ischemic Attack




                    JUNE GIBBS BROWN
                     Inspector General

                         JULY 1999
                       OEI-03-99-00240
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia office prepared this report under the direction of Robert A. Vito, Regional
Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                               HEADQUARTERS

David Graf, Project Leader                           Tricia Davis, Program Specialist




 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                       EXECUTIVE SUMMARY


PURPOSE

         To identify hospitals with atypically high billing patterns for patients with specific
         cerebrovascular disorders except transient ischemic attacks (DRG 014).


BACKGROUND

         Under Medicare’s prospective payment system, a hospital’s payment amount is
         determined by taking a hospital’s individual base payment rate and multiplying it by the
         weight of the diagnosis related group (DRG) assigned to the patient stay. A DRG’s
         weight is determined by the intensity of resources, on average, that are needed to treat that
         kind of case. The higher the relative weight, the greater the reimbursement.

         Medicare reimbursed hospitals almost $1.9 billion for DRG 014 in 1996. DRG 014 is
         coded when patients have principal diagnoses that include cerebrovascular accident and
         intracerebral hemorrhage. This code can trigger a higher Medicare reimbursement
         compared to other codes where patients may exhibit similar symptoms. DRG 015
         (Transient Ischemic Attack and Precerebral Occlusions) is one such code.

         The Health Care Financing Administration (HCFA) contracts with two Clinical Data
         Abstraction Centers to collect clinical data from hospital medical records. The
         Abstraction Centers are responsible for validating a random sample of claims from all
         Medicare inpatient hospital discharges. The results of the 1996 validation work showed
         that 4 percent of DRG 014 discharges sampled should have been coded to a lower-
         weighted DRG. The HCFA estimated that the total overpayment attributable to incorrect
         DRG 014 classifications was $11.9 million.

         For this inspection, we analyzed the Medicare Provider Analysis and Review file to
         identify hospitals with atypically high billings for DRG 014 in fiscal years 1993 to 1996.


FINDINGS

Thirty-five hospitals had atypically high Medicare billings for DRG 014

         A relatively small number of hospitals (35 of 4,883) had abnormally high DRG 014
         discharges compared to national figures. These 35 hospitals were identified based on two
         criteria: (1) a large proportion of DRG 014 discharges to total discharges in 1996,


Medicare Payments for DRG 014                       1                                      OEI-03-99-00240
         and (2) a significant increase in the proportion of DRG 014 discharges to total discharges
         between 1993 and 1996.

         For the 35 hospitals, DRG 014 discharges increased 73 percent from 2,281 in 1993 to
         3,941 in 1996. Nationally, DRG 014 discharges increased only 6 percent from 360,354 in
         1993 to 382,130 in 1996. Between 1993 and 1996, the proportion of DRG 014
         discharges to all discharges for the 35 hospitals increased 57 percent from 3.55 percent to
         5.56 percent. In contrast, the national proportion increased only 1 percent from 3.23
         percent in 1993 to 3.25 percent in 1996.

The questionable billing of DRG 014 could have a financial impact on the
Medicare program

         For the 35 hospitals, the number of DRG 014 discharges exceeded national norms by
         1,403 cases. Earlier DRG validation work performed by the Office of Inspector General
         (OIG) found an average per discharge difference of $1,716 between DRG 014 and the
         DRG that should have been coded. Based on this amount, we estimate that potential
         overpayments could be as high as $2.4 million or 14 percent of the $16.6 million paid to
         these hospitals for DRG 014 in 1996.

         The true upcoding error rate can only be determined by undertaking a detailed claims
         review at each hospital. Therefore, the potential overpayments at each hospital would
         vary according to actual coding error rates.


NEXT STEPS

         In several recent OIG reports, we recommended that HCFA perform routine monitoring
         and analysis of hospital billing and clinical data to proactively identify aberrant patterns of
         upcoding. The HCFA agreed with the recommendation and outlined an extensive
         program to respond to it. We offer the information in this report as insight into another
         possible problem DRG for HCFA to consider when refining its plan. We recognize that
         only record reviews by trained professionals will establish if incorrect coding has occurred
         at the 35 hospitals identified. Meanwhile, we have referred the 35 hospitals to our Office
         of Investigations. We look forward to continuing collaboration with HCFA on this
         matter.




Medicare Payments for DRG 014                       2                                      OEI-03-99-00240
                            TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Atypically high DRG 014 billings at 35 hospitals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Potential financial impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


NEXT STEPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDICES


          A: Clinical Data Abstraction Centers’ 1996 Validation Work for DRG 014 . . . . . . . . . 11


          B: Office of Inspector General’s Validation Work for DRG 014 . . . . . . . . . . . . . . . . . . 12





Medicare Payments for DRG 014                                       3                                                   OEI-03-99-00240
                                INTRODUCTION


PURPOSE

         To identify hospitals with atypically high billing patterns for patients with specific
         cerebrovascular disorders except transient ischemic attacks (DRG 014).


BACKGROUND

         In 1996, Medicare reimbursed hospitals almost $1.9 billion for patients whose cases were
         categorized as DRG 014. Principal diagnoses under DRG 014 include cerebrovascular
         accident and intracerebral hemorrhage. Between 1993 and 1994, nine diagnosis codes
         were added and three diagnosis codes were deleted under DRG 014. Currently, there are
         a total of 17 diagnosis codes that can lead to categorizing a case as DRG 014.

Hospital Reimbursement for Diagnostic Related Groups

         Diagnostic related groups (DRGs) are categories used to determine Medicare
         reimbursement for patient stays under the prospective payment system established by
         Congress in 1983. The actual Medicare payment amount is calculated by multiplying the
         individual hospital’s base payment rate by the weight of the DRG. The weight of a DRG
         is determined by the intensity of resources, on average, that are needed to treat that kind
         of case.

         When a patient is discharged, the physician summarizes information on a discharge face
         sheet. This information includes principal diagnosis, additional diagnoses, and procedures
         performed during the stay. Hospitals use codes from the International Classification of
         Diseases, Ninth Edition, Clinical Modification (ICD-9-CM) to report diagnosis and
         procedure information. A coder, trained in medical classification, uses all this information
         to assign the most appropriate ICD-9-CM code. A patient’s entire medical record is
         reviewed as part of the coding process.

         A hospital receives payment for treating a Medicare patient by preparing a claim and
         forwarding it to the Medicare fiscal intermediary. The intermediary processes the claim
         through a series of automated screens. These screens, called the Medicare Code Editor,
         identify cases that need further review before being classified into a DRG. Cases are
         classified by the GROUPER software program into the appropriate DRG. This program
         classifies each case into a DRG based on diagnosis, procedure code, and demographic
         information. Hospital reimbursement is then calculated by multiplying the weight of the
         assigned DRG by the hospital’s individual base payment rate.



Medicare Payments for DRG 014                       4                                      OEI-03-99-00240
         Reimbursement increases or decreases with the relative weight of the DRG. Sometimes
         patients exhibit similar symptoms, but their cases are assigned to different DRGs. A mis­
         classification of a DRG can result in an overpayment. For example, the weight of DRG
         014 (Specific Cerebrovascular Disorders Except Transient Ischemic Attack) was 1.2065 in
         1996. In the same year, the weight of DRG 015 (Transient Ischemic Attack and
         Precerebral Occlusions) was 0.7227. If a case that should have been DRG 015 was
         incorrectly classified as DRG 014, the overpayment would be approximately $1,700 per
         case.

The Health Care Financing Administration’s DRG Validation Work

         The Health Care Financing Administration (HCFA) contracts with Medicare Peer Review
         organizations (PROs) to ensure that care provided to Medicare patients is reasonable,
         necessary, and provided in the most appropriate setting. The PROs are required to
         contract out DRG validation efforts to two Clinical Data Abstraction Centers. The
         Abstraction Centers’ validation efforts provide HCFA with an overall assessment of DRG
         coding and identifies problematic DRGs.

         The 1996 validation effort found that 4 percent of the sample DRG 014 cases were
         improperly coded. The sample consisted of 20,152 claims from all Medicare inpatient
         hospital discharges. There were 682 sample discharges for patients with a diagnosis of
         specific cerebrovascular disorder, and 27 of 682 were improperly coded. Twenty-four of
         the 682 improperly coded cases resulted in overpayments to hospitals. These 24 cases
         should have been coded to 10 less expensive DRG codes. For example, 12 of the cases
         should have been coded as DRG 015. A complete listing of the appropriate DRG codes
         can be found in Appendix A. The total estimated overpayment attributable to DRG 014
         discharges in 1996 was $11,906,598.

The Office of Inspector General’s DRG Validation Work

         In a study entitled, Using Software to Detect Upcoding of Hospitals Bills (OEI-01-97-
         00010, August 1998), the Office of Inspector General (OIG) performed DRG validation
         work on a sample of 2,622 Medicare inpatient hospital discharges. Of the 2,622
         discharges, 129 were for patients with a specific cerebrovascular vascular disorder. The
         results of this validation showed that 9 percent of the sample DRG 014 discharges (12 of
         129) were improperly coded. All of the erroneously coded discharges resulted in
         overpayments to the hospitals.

         The erroneously coded DRG 014 discharges should have been coded to seven less
         expensive DRGs. Six of the erroneously coded discharges should have been coded to
         DRG 015. A complete listing of the appropriate DRG codes can be found in Appendix B.




Medicare Payments for DRG 014                    5                                    OEI-03-99-00240
Other Office of Inspector General DRG Work

         In a follow-up to the Office of Inspector General report just mentioned, the OIG sent an
         advisory report to HCFA entitled, Monitoring the Accuracy of Hospital Coding (OEI-01-
         98-00420, January 21, 1999). We pointed out that the DRG system was vulnerable to
         upcoding, particularly within certain DRGs. We recommended that HCFA perform
         routine monitoring and analysis of hospital billing data and clinical data to identify aberrant
         patterns of upcoding.

         The OIG has also released three reports focusing on hospital coding patterns over time for
         DRGs 475, 416, and 296. Medicare Payments for DRG 475: Respiratory System
         Diagnosis with Ventilator Support (OEI-03-98-00560, January 1999), Medicare
         Payments for Septicemia (OEI-03-98-00370, March 1999), and Medicare Payments for
         DRG 296: Nutritional and Miscellaneous Metabolic Disorders (OEI-03-98-00490, April
         1999) found a relatively small number of hospitals with atypically high billings for DRGs
         475, 416, and 296. The methodology in these reports demonstrated a technique that
         could be used to focus HCFA’s limited resources in identifying potential cases of DRG
         upcoding. This report on specific cerebrovascular disorders provides another example of
         how this technique could be used.


METHODOLOGY

         We extracted data from the Medicare Provider Analysis and Review (MedPAR) file for
         fiscal years 1993 to 1996. The MedPAR file contains Medicare DRG discharge
         information for all hospitals. For each hospital that had at least one DRG 014 discharge
         (4,883 hospitals), we determined the number of DRG 014 discharges and the total overall
         number of discharges by year.

         We calculated the proportion of DRG 014 discharges to total discharges for each hospital
         in 1996. We found that DRG 014 discharges accounted for more than 4.5 percent of all
         discharges in just 18 percent of hospitals. We then determined the proportion of DRG
         014 discharges to total discharges for 1993 and compared it to the proportion calculated
         for 1996. Between 1993 and 1996, the proportion had increased by more than 40 percent
         in 12 percent of the hospitals.

         To identify hospitals with atypically high DRG 014 billing patterns, we selected hospitals
         with the following criteria: (1) DRG 014 discharges accounted for more than 4.5 percent
         of all discharges in 1996, and (2) the proportion of DRG 014 discharges to total
         discharges had increased by more than 40 percent between 1993 and 1996. We excluded
         hospitals with less than 75 DRG 014 discharges in 1996, hospitals currently under
         investigation by the OIG, and hospitals in the State of Maryland (Maryland hospitals are
         not currently reimbursed under the Prospective Payment System).




Medicare Payments for DRG 014                      6                                       OEI-03-99-00240
         For the hospitals with atypical billing patterns, we determined a potential overpayment
         amount for 1996. We first calculated a per discharge overpayment amount. We based
         this calculation on the recent DRG validation work done by the OIG. We determined the
         difference between the DRG 014 payment that was inappropriately billed and the payment
         for the DRG code that should have been billed. We compared the number of DRG 014
         discharges for each of the hospitals identified against the national average of DRG 014
         discharges for all hospitals. We then multiplied this difference by the estimated per
         discharge overpayment to determine the potential financial impact to the Medicare
         program.

         This inspection was conducted in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Medicare Payments for DRG 014                   7                                   OEI-03-99-00240
                                         FINDINGS

Thirty-five hospitals had atypically high Medicare billings for
DRG 014
         Compared to national figures, a relatively small number of hospitals had abnormally high
         discharges for patients with a specific cerebrovascular disorder. For 35 hospitals, total
         DRG 014 discharges increased 73 percent from 2,281 in 1993 to 3,941 in 1996. This
         represents an average increase of 20 percent a year. Nationally, DRG 014 discharges
         increased only 6 percent from 360,354 in 1993 to 382,130 in 1996.

         Some of the 35 hospitals exhibited unusually high increases in DRG 014 discharges from
         1993 to 1996. For instance, one hospital’s DRG 014 discharges increased from 82 (out of
         2,793 total discharges) in 1993 to 191 (out of 2,726 total discharges) in 1994 — a more
         than two-fold increase.

         The 35 hospitals also had atypically high proportions of DRG 014 discharges to total
         discharges as compared to the national average. As illustrated in the chart below, for the
         35 hospitals, the proportion of DRG 014 discharges to total discharges increased from
         3.55 percent in 1993 to 5.56 percent in 1996. For all hospitals, this same proportion
         increased slightly from 3.23 percent in 1993 to 3.25 percent in 1996.

                   Proportion of DRG 014 Discharges to Total Discharges
                                       1993 to 1996

                                6.50%
                                6.00%
                                5.50%
                                5.00%
                                4.50%
                                4.00%
                                3.50%
                                3.00%
                                2.50%
                                2.00%
                                1.50%
                                1.00%
                                0.50%
                                0.00%
                                         1993        1994        1995    1996
                   DRG 014 to Total     3.55%       4.46%        4.83%   5.56%
                   (35 Hospitals)
                   DRG 014 to Total     3.23%       3.12%        3.18%   3.25%
                   (All Hospitals)


                  Source: Medicare Provider Analysis and Review file



Medicare Payments for DRG 014                          8                                OEI-03-99-00240
         The 35 hospitals were located in 17 States and Puerto Rico. Fourteen of the hospitals
         were concentrated in just 2 States and Puerto Rico. Six of these hospitals were in
         California and four hospitals were in Puerto Rico and Texas. The remaining States had
         between one and two hospitals.



The questionable billing of DRG 014 could have a financial
impact on the Medicare program
         For the 35 hospitals, the number of discharges for patients with a specific cerebrovascular
         disorder diagnosis exceeded national norms by 1,403 cases. Using previous OIG
         validation efforts, we calculated a difference of $1,716 between the DRG 014 payment
         that was inappropriately billed and the payment for the DRG code that should have been
         billed. Therefore, we estimate that potential overpayments could be as high as $2.4
         million in 1996. This $2.4 million represents 14 percent of the $16.6 million paid to these
         hospitals for DRG 014 in 1996.

         The true upcoding error rate can only be determined by undertaking a detailed claims
         review at each hospital. Therefore, the potential overpayments at each hospital would
         vary depending on actual coding error rates.




Medicare Payments for DRG 014                     9                                     OEI-03-99-00240
                                NEXT STEPS

In several recent Office of Inspector General reports, we recommended that the Health Care
Financing Administration (HCFA) perform routine monitoring and analysis of hospital billing and
clinical data to proactively identify aberrant patterns of upcoding. The HCFA agreed with the
recommendation and outlined an extensive program to respond to it. We offer the information in
this report as insight into another possible problem DRG for HCFA to consider when refining its
plan. We recognize that only record reviews by trained professionals will establish if incorrect
coding has occurred at the 35 hospitals identified. Meanwhile, we have referred the 35 hospitals
to our Office of Investigations. We look forward to continuing collaboration with HCFA on this
matter.




Medicare Payments for DRG 014                  10                                   OEI-03-99-00240
                                                                                                APPENDIX A


                         Clinical Data Abstraction Centers’ 1996 

                               Validation Work for DRG 014


             This table shows the results of the 1996 Clinical Data Abstraction Centers’ validation
             effort for DRG 014 (Specific Cerebrovascular Disorders Except Transient Ischemic
             Attack). Column one contains the appropriate DRGs for the 24 upcoded DRG 014
             discharges identified in the validation work.

                                                                              Number of         Percent of Total
     DRG        DRG                                                          Times DRG           Times DRGs
     Codes     Weights                  DRG Definitions 1                    was Upcoded         were Upcoded

      015       0.7227    Transient Ischemic Attack & Precerebral                  12                 50%
                          Occlusions

      012       0.9891    Degenerative Nervous System Disorders                     2                  8%

      024       0.9908    Seizure & Headache Age > 17 with                          2                  8%
                          Complications and Comorbidities

      029       0.6217    Traumatic Stupor & Coma, Coma < 1 Hour                    2                  8%
                          Age > 17 without Complications and
                          Comorbidities

      127       1.0302    Heart Failure & Shock                                     1                  4%

      138       0.8049    Cardiac Arrhythmia & Conduction Disorders                 1                  4%
                          with Complications and Comorbidities

      180       0.9240    G.I. Obstruction with Complications and                   1                  4%
                          Comorbidities

      296       0.9166    Nutritional and Miscellaneous Metabolic                   1                  4%
                          Disorders Age > 17 with Complications and
                          Comorbidities

      321       0.6104    Kidney & Urinary Tract Infections Age > 17                1                  4%
                          without Complications and Comorbidities

      463       0.7416    Signs & Symptoms with Complications and                   1                  4%
                          Comorbidities

                                                                                   24                  98% 2
                                                                     Source: Clinical Data Abstraction Centers’ Data
1	
     These definitions were taken from the Diagnosis Related Groups Definitions Manual, version 15.0, as compiled
     by the company, 3M Health Information Systems.
2
     The total for this column does not equal 100 percent due to rounding.



Medicare Payments for DRG 014                             11                                         OEI-03-99-00240
                                                                                                 APPENDIX B


                                 Office of Inspector General’s

                                 Validation Work for DRG 014


This table shows the results of the Office of Inspector General’s (OIG) validation work for DRG
014 (Specific Cerebrovascular Disorders Except Transient Ischemic Attack). Column one
contains the appropriate DRGs for the 12 upcoded DRG 014 discharges found in the validation
work.

                                                                               Number of         Percent of Total
     DRG       DRG                                                             times DRG        Times DRGs were
     Codes    Weights                   DRG Definitions 1                     was Upcoded           upcoded

      015      0.7227     Transient Ischemic Attack & Precerebral                   6                  50%
                          Occlusions

      024      0.9908     Seizure & Headache Age > 17 with                          1                   8%
                          Complications and Comorbidities

      065      0.5162     Dysequilibrium                                            1                   8%

      138      0.8049     Cardiac Arrhythmia & Conduction Disorders                 1                   8%
                          with Complications and Comorbidities

      139      0.4945     Cardiac Arrhythmia & Conduction Disorders                 1                   8%
                          without Complications and Comorbidities

      320      0.9320     Kidney & Urinary Tract Infections Age > 17                1                   8%
                          with Complications and Comorbidities

      429      0.9537     Organic Disturbances & Mental Retardation                 1                   8%

                                                                                    12                 98% 2
                                                               Source: OIG, Office of Evaluation and Inspections Data
1	
     These definitions were taken from the Diagnosis Related Groups Definitions Manual, version 15.0, as compiled
     by the company, 3M Health Information Systems.
2
     The total for this column does not equal 100 percent due to rounding.




Medicare Payments for DRG 014                             12                                          OEI-03-99-00240
